No.

1

i

IN THE
SUPREME COURT OF THE UNITED STATES

Michael Fred Houston

-PETITIONER

VS.
THE STATE OF TEXAS

-RESPONDENT(S)

PROOF OF SERVICE
I hereby certify that a true and correct copy of the Motion FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI and a notarized
AFFIDAVIT, as required by Supreme Court Rule 29 was served by depositing an
envelope containing the above documents in the Telford Unit by delivery to a
third-party commercial carrier.
For delivery within 3 Calender days addressed to: The Supreme Court of the
United States, 1 First Street, N.E., Washington D.C. 20543.
..i <

The filing is accompanied by a notarized statement in compliance with 28
U.S.C. § 1746.
Executed on

I

M»| X]

]\\

,2020

